WAIVER

Supreme Court, U.S.
FILED

JAN 1 7 2020
SUPREME COURT OF THE UNITED STATES
Supreme Court Case No

Frank Condez

OFFICE OF THE CLERK

19-781
v.

Massachusetts Civil Service Comm'n et al.
(Respondent)

(Petitioner)

I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested
by the Court.
Please check the appropriate boxes:
Please enter my appearance as Counsel of Record for all respondents.
There are multiple respondents, and I do not represent all respondents. Please enter my
appearance as Counsel of Record for the following respondent(s):

Leonard H. Kesten

I am a member of the Bar of the Supreme Court of the United States.
I am not presently a member of the Bar of this Court. Should a response be requested, the response
will be filed y Bar mber.
dXalicS

Signature
Date.

12/30/2019

(Type or print) Name

Nora Adukonis, Esq.
Mr. 0 Ms. 0 Mrs. 0 Miss

Firm

Litchfield Cavo, LLP

Address

6 Kimball Lane, Suite 200

City & State
Phone

Lynnfield, MA

781-309-1500

Zip
Email

01940

Adukonis@LitchfieldCavo.com

A COPY OF THIS FORM MUST BE SENT TO PETITIONER'S COUNSEL OR TO PETITIONER
IF PRO SE. PLEASE INDICATE BELOW THE NAME(S) OF THE RECIPIENT(S) OF A COPY
OF THIS FORM. NO ADDITIONAL CERTIFICATE OF SERVICE IS REQUIRED.

CC: Gregory V. Sullivan, Esq.

RECEIVED
JAN 2 8 2020
OFFICE OF THE CLERK
SUPREME COURT

U.S.

